                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A-02010005                                                                       Page 1 of 2



            We received an allegation that the PI and co-PI (subjects 1 and 2, respectively) submitted an NSF
            proposal' that contained an idea that had been taken inappropriately (intellectual theft) from earlier
            collaborative proposals submitted by the subjects and other ~ 1 s The. ~ subjects' NSF proposal used
          , verbatim text from the earlier collaborative proposals, which, because the subjects were co-authors
            on these earlier proposals, was appropriate. However, a reference3to the idea that was cited seven
            times in the collaborative proposals as part of the verbatim text used by the subjects' in their
            proposal had been removed from the subject's proposal and replaced with other citations.

           When we asked the subjects for an explanation, subject 2 explained that his participation in the
           preparation of the NSF proposal was limited to a small section that was unrelated to the citation
           issue. He explained that subject 1 prepared the bulk of the proposal and, therefore, would
           respond to our concerns.

           Subject 1 supported subject 2's contention that subject 2 had not been involved in the sections of
           the proposal that included the removed citation. Subject 1 provided supporting documentation
           and complete explanations about the removal of the single reference from the recent proposal.
           Subject 1 argued that the idea was an old idea that was neither original nor unique to the single
           citation that was removed.

           Because of the technical nature of the information provided by subject 1, we asked an expert to
           review his response. The expert reviewed subject 1's response as well as other related literature
           sources. The expert stated that the idea in the NSF proposal for which the single reference had
           been removed bordered on textbook type information. As such, subject 1 appropriately
           referenced the idea with the changed citations.




I      Sign / date
                               Agent                    Attorney                 Supervisor                   AIGI



                                                                                                      OIG Form 2 (2/02)
                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDUM




We concurred with the expert's evaluation. The evaluation supported subject 1's contention that
the idea was not original or unique to the single reference. This case is closed and no fkther
action will be taken.
